HHS/OIG-Audit--"Retroactive Claims for the Title IV-E Foster Care Program Resubmitted by the Missouri Department of Social Services, (A-07-95-01010)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Retroactive Claims for the Title IV-E Foster Care Program Resubmitted
by the Missouri Department of Social Services," (A-07-95-01010)
February 20, 1996
Complete Text of Report is available in PDF format
(1.1 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report addresses the allowability of retroactive quarterly claims totaling
$12,236,529 in Federal financial participation (FFP) resubmitted by the Missouri
Department of Social Services (State) for reimbursement under the title IV-E
Foster Care Program. It was determined that $7,990,234 (FFP) resubmitted for
Federal reimbursement was allowable for the calendar year 1989. The State's
resubmitted Title IV-E retroactive claims, however, included $4,109,375 (FFP)
which were outside the 2-year regulatory deadline for filing claims and therefore
unallowable. We recommended a financial adjustment of $954,927 for the first
quarter, and set aside for ACF resolution $3,154,448 for the other three quarters.